Report No. D-2009-096           July 28, 2009




   Contracts for the U.S. Army's Heavy-Lift VI
               Program in Kuwait
                  Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
30B




To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
31B




ACC                           U.S. Army Contracting Command
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
COR                           Contracting Officer Representative
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
HETCO                         El Hoss Engineering and Transportation Company
IG                            Inspector General
QAR                           Quality Assurance Representative
QASP                          Quality Assurance Surveillance Plan
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704

                                                                         JUL 28 2009
MEMORANDUM FOR EXECUTIVE DIRECTOR, ROCK ISLAND CONTRACTING
                 CENTER, U.S. ARMY CONTRACTING COMMAND,
              COMMANDER, DEFENSE CONTRACT MANAGEMENT
                 AGENCY -KUWAIT
              COMMANDER, U.S. ARMY CONTRACTING COMMAND,
                 S01\JTHWEST ASIA-KUWAIT

SUBJECT: Contracts for the U.S. Anny ' s Heavy~Lift VI Program in Kuwait (Report
         No. D-2009-096)


We are providing this report for review and comment. The Commander, U.S. Army
Contracting Command, Southwest Asia-Kuwait did not respond to the draft report;
however, we considered comments from the U.S. Army Contracting Command, Rock
Island Contracting Center and the Defense Contract Management Agency-International
when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the U.S. Army Contracting Command, Rock Island Contracting Center
and Defense Contract Management Agency-International were responsive. We request
that the Commander, U.S. Army Contracting Command, Southwest Asia-Kuwait provide
comments on Recommendation B by August 27, 2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
audros(a),dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                                     Assistant Inspector General
                                                     Readiness, Operations, and Support
THIS PAGE INTENTIONALLY LEFT BLANK
Report No. D-2009-096 (Project No. D2008-D000LH-0250.000)                   July 28, 2009


               Results in Brief: Contracts for the U.S.
               Army’s Heavy-Lift VI Program in Kuwait

What We Did
0B




We evaluated whether contract oversight of the          complying with requirements, achieved
U.S. Army’s Heavy-Lift VI program, which                standards, and that the $522 million spent for
involves the use of commercial transportation           contractors’ services represented the best value
services in support of Operation Iraqi Freedom,         to the Government.
was effective.
                                                        What We Recommend
                                                        2B




What We Found
1B
                                                        We recommend that the Executive Director,
We identified internal control weaknesses               Rock Island Contracting Center, ACC reassess
regarding contract oversight of the                     surveillance methods used in the quality assur-
Heavy-Lift VI program. The U.S. Army                    ance surveillance plan, ensure contractors have
Contracting Command (ACC), Southwest                    an approved comprehensive quality control
Asia-Kuwait did not develop appropriate sur-            program, and update the contract administration
veillance methods to assess contractors’ com-           functions in the delegation memoranda and the
pliance to performance objectives, approve              Contract Administration Delegation Matrix.
contractors’ quality control plans at the time of
award, or perform legal reviews timely, and key         We also recommend that the Commander,
contracting documents were not always                   Defense Contract Management Agency-Kuwait
available.                                              finalize guidance on contract administration for
                                                        the Heavy-Lift VI program.
Since procuring contracting office respon-
sibilities were later transferred to ACC Rock           Additionally, we recommend that the
Island Contracting Center and administrative            Commander, ACC Southwest Asia-Kuwait
contracting office responsibilities were dele-          comply with regulatory guidance regarding
gated to the Defense Contract Management                retention of contract files.
Agency-Kuwait, contract oversight has im-
proved. However, clear guidance was not in              Management Comments and
                                                        3B




place to assist in the oversight process and a          Our Responses
memorandum of agreement between the                     The Executive Director, Rock Island
procuring contracting office and the adminis-           Contracting Center and the Deputy Commander,
trative contracting office was needed to detail         Defense Contract Management Agency-
contract administration responsibilities.               International provided responsive comments to
                                                        the recommendations. The Commander, ACC,
Although ACC Rock Island Contracting Center             Southwest Asia-Kuwait did not provide
and Defense Contract Management Agency-                 comments on the draft report, dated May 5,
Kuwait have taken corrective actions to                 2009. We request the commander provide
strengthen the administration and oversight of          comments on the final report by August 28,
the Heavy-Lift VI program, DoD did not have             2009. Please see the recommendations table on
reasonable assurance that contractors were              the back of this page.




                                                    i
Report No. D-2009-096 (Project No. D2008-D000LH-0250.000)              July 28, 2009


Recommendations Table
4B




Management                                         Recommendations   No Additional
                                                   Requiring Comment Comments Required
Executive Director, Rock Island Contracting                          A.1
Center, U.S. Army Contracting Command,

Deputy Commander, Defense Contract                                   A.2
Management Agency International

Commander, U.S. Army Contracting                   B
Command, Southwest Asia-Kuwait



Please provide comments by August 28, 2009.




                                              ii
Table of Contents

Results in Brief                                                        i

Introduction                                                            1

       Objective                                                        1
       Background                                                       1
       Review of Internal Controls                                      3

Finding A. Effectiveness of Contractor Oversight                        4
      Quality Assurance Surveillance Plan                               5
      Contractors’ Quality Control Plans                                8
      Defense Contract Management Agency Oversight                      8
      Delegation Memoranda                                             11
      Recommendations, Management Comments, and Our Response           13

Finding B. Adequacy of Contract Files                                  15
      Recommendation                                                   17
      U.S. Army Contracting Command Southwest Asia-Kuwait
        Comments Required                                              17

Appendix

       Scope and Methodology                                           18
        Prior Coverage                                                 19

Management Comments

       U.S. Army Contracting Command, Rock Island Contracting Center   20
       Defense Contract Management Agency International                23
THIS PAGE INTENTIONALLY LEFT BLANK
Introduction
Objective
5B




The overall objective of the audit was to determine whether contracts for the transportation of
materiel in support of operations in Iraq and Afghanistan were effective. Specifically, we
reviewed the effectiveness of the contract oversight of the U.S. Army’s use of commercial
transportation services for the movement of equipment, cargo, and personnel in support of
Operation Iraqi Freedom.

Background
6B




We performed this audit as required by Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud, and Abuse
in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,” January 28, 2008.
Section 842 requires thorough investigation and auditing to identify potential waste, fraud, and
abuse in the performance of DoD contracts, subcontracts, and task and delivery orders for the
logistical support of coalition forces in Iraq and Afghanistan. Further, section 842 requires
thorough investigation and auditing of Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan. The audit’s scope was to include the effectiveness of the Department’s
management and oversight of the Heavy-Lift VI program and the flow of information from
contractors to officials responsible for contract management and oversight.

Heavy-Lift VI Program
In June 2005, the U.S. Army Contracting Command (ACC) Southwest Asia-Kuwait awarded
three contracts (referred to as the Heavy-Lift VI program) to support the theater transportation
mission. The Heavy-Lift VI program consists
of three contractors that provide commercial
transportation services using trucks, trailers, and
buses for the movement of equipment, cargo,
and personnel from designated locations within
Kuwait and Iraq to designated locations
throughout the theater of operations. Services
performed are within a 1,000-kilometer road
distance (approximately 621 miles) of Camp
Arifjan, Kuwait. The Heavy-Lift VI program
involves about 1,000 convoy missions on a               Source: DoD IG Auditors, November 6, 2008.
weekly basis that are usually designated either for
northbound missions to Iraq or in and around             Figure 1. Trucking Operations
Kuwait.

     The Heavy-Lift VI contracts are firm-fixed-price, indefinite-delivery, indefinite-quantity
     contracts and include the base year with four 1-year option periods. ACC Southwest Asia-
     Kuwait issued task orders against the Heavy-Lift VI contracts from July 2005 until November
     2007. In November 2007, the command transferred procuring contracting office authority and


                                                   1
related contract files for the Heavy-Lift VI program to the U.S. Army Sustainment Command,
Acquisition Center, Rock Island, Illinois, to continue supporting the theater transportation
mission. Table 1 provides a summary of contracts and the number of task orders issued for the
Heavy-Lift VI program between July 2005 and August 2008.

                               Table 1. Heavy-Lift VI Contracts and Task Orders
                                              Types of Vehicles        Task     Task Order Value
    Contract                  Contractor           Included           Orders      (in Millions)
                                      1
W912D105D0010                   PWC           Trucks and Trailers        60          $274.1
                                     2
W912D105D0011                    IAP          Trucks and Trailers        75          $247.4
                                        3
W912D105D0012                  HETCO       Buses and Baggage Trucks      62          $171.1
Total                                                                   197          $692.6
              1
                Public Warehousing Company, Kuwait.
              2
                International American Products Worldwide Services, United States.
              3
                El Hoss Engineering and Transportation Company, Kuwait.

Of the 197 task orders, valued at $692.6 million, awarded for the Heavy-Lift VI program, 161 of
those task orders (valued at about $527.5 million), were issued by ACC Southwest Asia-Kuwait.
Also, in November 2007, ACC Rock Island Contracting Center designated the Defense Contract
Management Agency (DCMA)-Kuwait to be the administrative contracting office for the Heavy-
Lift VI program.

Defense Contract Management Agency
19B




DCMA personnel perform contract administration services for DoD. Specifically, they act on
behalf of the contracting officer, as the DoD contract manager, responsible for ensuring that
DoD’s supplies and services are delivered on time, at projected cost, and the contractors meet all
performance requirements. DCMA Iraq/Afghanistan is the contract management office for
contracts awarded in the Iraq and Afghanistan area of operations. That office has a subordinate
command located in Kuwait. The administrative contracting officer for the Heavy-Lift VI
program is assigned to the DCMA-Kuwait office and is responsible for providing continuous on-
ground Government oversight. Responsibilities also include monitoring of contractor
performance and maintaining contract surveillance files. The 15th Transportation Detachment
nominated the current contracting officer representative (COR) to the Heavy-Lift VI program.
DCMA-Kuwait appointed the COR and delegated surveillance for the Heavy-Lift VI program.
In addition, a DCMA-Kuwait quality assurance representative (QAR) works closely with the
COR and provides the COR with training. Further, the QAR is responsible for ensuring the
contractor complies with contract requirements.





      On October 1, 2008, the Acquisition Center was reassigned as the U.S. Army Contracting Command, Rock Island
      Contracting Center, Rock Island, Illinois.


                                                             2
Guidance
20B




The Federal Acquisition Regulation (FAR) and the Defense Federal Acquisition Regulation
Supplement (DFARS) prescribe the policies and procedures for contract surveillance and
oversight. Specifically, FAR Part 46, “Quality Assurance,” prescribes policies and procedures to
ensure that supplies and services acquired under Government contract conform to the contract’s
quality and quantity requirements. DFARS section 201.6, “Career Development, Contracting
Authority, and Responsibilities,” outlines the role and responsibilities of the COR.

Review of Internal Controls
7B




We identified internal control weaknesses regarding contract oversight for the Heavy-Lift VI
program as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. DoD Instruction 5010.40 states that internal controls are the
organization’s policies and procedures that help program and financial managers achieve results
and safeguard the integrity of their programs. The Instruction also requires DoD organizations to
implement a comprehensive system of internal controls that provides reasonable assurance that
programs are operating as intended and to evaluate the adequacy of the controls.

We did not assess the individual internal control programs for the respective organizations.
However, during our review we did test some of the key internal controls applicable to the
effectiveness of contractor oversight for the Heavy-Lift VI program. Internal controls for
contract oversight of the U.S. Army’s Heavy-Lift VI program were generally in place; however,
we did identify some internal control weaknesses specific to inadequate surveillance methods for
assessing contractors compliance, lack of specific guidance to assist with oversight functions,
and noncompliance with document controls. During our review, DCMA-Kuwait and ACC Rock
Island Contracting Center began taking immediate corrective actions to strengthen processes and
to mitigate these risk areas. We describe these issues of noncompliance and controls needing
improvement, as well as corrective actions taken by DCMA-Kuwait and ACC Rock Island
Contracting Center in our report findings. Implementing all recommendations in this report will
improve the internal controls over the effectiveness of contractor oversight. We will provide a
copy of this report to the senior Army officials responsible for internal controls.




                                               3
Finding A. Effectiveness of Contractor
Oversight
Contracting oversight for the U.S. Army’s Heavy-Lift VI program, which involves
commercial transportation for the movement of equipment, cargo, and personnel in
support of operations in Kuwait and Iraq, was not effective. Specifically, the U.S. Army
Contracting Command, Southwest Asia-Kuwait did not:

      Develop appropriate surveillance methods to assess contractors’ compliance with
       performance objectives, or

      Approve the contractors’ quality control plans.

Since contracting office responsibilities transferred to ACC Rock Island Contracting
Center and administrative contracting office responsibilities were delegated to DCMA-
Kuwait, contract oversight of Heavy-Lift VI contracts has improved. However:

      DCMA-Kuwait did not have specific guidance in place to assist with oversight
       functions for the Heavy-Lift VI contracts, and

      The procuring contracting officer’s delegation memoranda defining contract
       administration responsibilities to the administrative contracting officer were not
       always clear. Also, a memorandum of agreement detailing the procuring
       contracting office expected responsibilities for contract administration was not in
       place for the Heavy-Lift VI program.

Although DCMA-Kuwait has initiated corrective actions to strengthen processes and
mitigate risk areas regarding contract oversight, DoD did not have reasonable assurance
that contractors in the Heavy-Lift VI program were complying with contract require-
ments, achieved standards, and that the services provided represented the best value to
the Government.

The procuring contracting office must reassess surveillance methods and develop a
memorandum of agreement with DCMA-Kuwait that clearly defines contract
administration functions. In addition, DCMA-Kuwait must develop guidance governing
oversight for the Heavy-Lift VI program.




                                            4
Surveillance Overview
Surveillance of contract performance is an element of contract administration and it
should start upon the award of the contract and continue until contract completion to
ensure contractors perform required services in compliance with contractual agreements.
According to FAR Part 46, “Government contract quality assurance is required to be
performed as necessary to determine that supplies or services conform to contract
requirements.” It also states that the Quality Assurance Surveillance Plan (QASP) should
be prepared in conjunction with the statement of work and should specify all work
requiring surveillance and the method of surveillance. The QASP is an organized written
document specifying the methodology to be used for surveillance of contractor
performance. The QASP for the Heavy-Lift VI program was developed by ACC
Southwest Asia-Kuwait.

     According to the Performance Work Statement, the Government will evaluate the
     contractor’s performance in accordance with the QASP. The QASP is based on the
     premise that the Government desires to maintain a quality standard in truck and bus
     transportation services and provides a systematic approach to evaluate the services the
     contractor is required to furnish. Further, it defines how the performance will be applied,
     the frequency of surveillance, and the maximum acceptable defect rate.

     The Performance Work Statement also requires contractors to develop and maintain an
     effective quality control program that, at a minimum, addresses the performance
     objectives identified in the QASP. The QASP states that the first major step to ensuring a
     self-correcting contract is to ensure that the quality control programs accepted at the
     beginning of the contract provide the measures needed to lead the contractor to success.
     Further, the contractor, and not the Government, is responsible for management and
     quality control actions to meet the terms of the contract. Also, contractors are required to
     develop and maintain an effective quality control plan to ensure services are performed,
     as well as develop procedures to identify and prevent defective services.

     DCMA is to perform contract administration functions in accordance with the FAR, the
     contract terms, any interagency agreement, and its applicable regulations. The
     administrative contracting officer (DCMA-Kuwait) ensures contractors comply with
     contract and quality assurance requirements. The QAR is responsible to provide quality
     assurance oversight through independent examinations and reviews of contractor services
     and products, as well as to provide surveillance training to CORs. The COR
     responsibilities include performing contractor surveillance using independent
     examinations and reviews and coordinating results to the QAR, obtaining assurance the
     contractors perform the contract technical requirements, and performing inspections
     necessary in connection with contract performance.

Quality Assurance Surveillance Plan
8B




ACC Southwest Asia-Kuwait did not develop appropriate surveillance methods to assess
contractors’ compliance with performance objectives for the Heavy-Lift VI contracts.
The QASP states that the intent of the surveillance program is to gain confidence in the
contractors’ way of doing business and then adjusting the level of oversight to a point


                                                  5
that maintains that confidence. It further states that the surveillance approach may not be
one that stays the same throughout the duration of the contracts and Government
evaluators should be prepared to periodically update the surveillance approach as
required. By using inappropriate surveillance methods to evaluate the performance
objectives for the Heavy-Lift VI program, the Government cannot gain an adequate level
of confidence in the contractors’ performance.

The QASP contains five performance objectives that the contractors are to accomplish.
To determine whether contractors are accomplishing the objectives, DCMA-Kuwait is to
use one of three surveillance methods. Table 2 provides a summary showing whether the
surveillance methods used to assess contractor performance objectives were appropriate.

                        Table 2. Performance Requirements
          Performance                      Surveillance
           Objective          Method          Criterion              Appropriate
        Reports               Random         Frequently                 No
                              sampling     recurring tasks
        Call forwarding     100 percent      Infrequent                   No
         times               inspection      occurrence
        Operational           Random         Frequently                   No
         availability         sampling     recurring tasks
        Increased           100 percent      Infrequent                   Yes
         quantities          inspection      occurrence
        Documentation        Customer       Per customer                  No
                             complaint        complaint


A summary of each performance objective and whether the surveillance method was
appropriate follows:

      Reports. Using random sampling as a surveillance method to assess contractor-
       generated reports is not appropriate. This performance objective requires the
       contractor to provide accurate and complete reports as scheduled (for example,
       usage [daily], serious incidents [at time of incident], and personnel [quarterly]).
       The contract defines the criterion for surveillance as appropriate for frequently
       recurring tasks. However, required reports, such as serious incidents and
       personnel are not always frequent. Though a frequently recurring task, the usage
       reports are reviewed by the COR daily to ensure contractors will have the
       required number of vehicles on-hand to meet mission requirements. As such, we
       do not see a need for a random sampling approach as an appropriate surveillance
       method to assess this objective. Therefore, serious incidents and personnel
       reports should be reviewed on each occurrence instead of on a random basis and
       usage reports should continue to be reviewed daily.




                                             6
      Call Forwarding Times. Using a 100 percent inspection as a surveillance method
       to assess call forwarding times is not appropriate. This performance objective
       states that contractors should have the required vehicles and drivers at their
       directed location on time, no later than 1 hour prior to mission start time, for pre-
       mission vehicle inspection. The contract defines the criterion as appropriate for
       tasks that occur infrequently. However, the number of missions exceeds
       approximately 1,000 per week and therefore, call forwarding times are not
       infrequent. In addition, the COR goal is to complete inspections of about 125
       truck convoys per week based on available personnel and logistics. Therefore,
       performing a 100 percent inspection of all vehicles is not feasible; a statistical
       sample approach may be more appropriate.

      Operational Availability. Using random sampling as a surveillance method to
       assess operational availability is not appropriate. This performance objective
       requires the contractor to replace or repair disabled vehicles within 6 hours. The
       surveillance criterion to assess this objective is for frequently recurring tasks.
       However, the COR stated that she does not have any challenges with contractors
       having a frequent occurrence of disabled vehicles. Therefore, using a 100 percent
       inspection for each occurrence may be more effective.

      Increased Quantities. Using a 100 percent inspection as a surveillance method to
       assess increased quantities is appropriate. This performance objective requires
       the contractor to provide additional vehicles as needed within prescribed time
       limits. The criterion is for infrequent occurrence. Because this approach is
       infrequent and may involve only a few vehicles on each occurrence, the
       surveillance method for assessing this performance objective is appropriate.

      Documentation. Using customer complaint as a surveillance method to assess
       contractor documentation is not appropriate. This performance objective requires
       the contractor to provide all necessary documentation for trucks and drivers—
       licenses, permits, badges—to permit entry into camps, airports, seaports, and
       border crossings. In this scenario, if contractors arrive at their destination and are
       not granted access due to improper documentation and the customers complain of
       the delay, then DCMA-Kuwait will assess contractors’ documentation for
       appropriateness. We do not believe using customer complaint as a surveillance
       method is appropriate to assess this performance objective. Contractor
       documentation should be validated prior to vehicle departure from contractor or
       Government facilities. Continuing audits on a statistical sampling basis by
       DCMA-Kuwait (QAR and COR) to assess contractor documentation, as well as
       relying on the contractors’ quality control plans, is a more appropriate method.

Inappropriate surveillance methods do not ensure contractors are complying with
performance objectives and achieving contract standards. The procuring contracting
office should update those methods to improve the level of oversight being performed on
the Heavy-Lift VI program.



                                             7
Contractors’ Quality Control Plans
9B




ACC Southwest Asia-Kuwait did not approve the contractors’ quality control plans.
FAR Part 46 states that contractors’ responsibilities include controlling the quality of
supplies or services needed to meet contract performance requirements. The QASP states
that the quality control program is the driver for product quality and that the contractor is
required to develop a comprehensive program of inspections and monitoring actions. At
a minimum, the contractor is required to develop quality control procedures that address
the performance objective, standards, and performance thresholds. Quality control plans
are to be delivered after contract award but prior to the beginning of the performance
period.

The contracting offices at ACC Southwest Asia-Kuwait, ACC Rock Island Contracting
Center, and DCMA-Kuwait could not provide supporting documentation that the
contractors’ quality control plans were approved. ACC Southwest Asia-Kuwait officials
stated that since contracting authority and files were transferred to ACC Rock Island
Contracting Center, they no longer have any remaining files on-hand to validate whether
such plans were approved. Further, our review of those files obtained from ACC Rock
Island Contracting Center showed no evidence of approval documentation for the quality
control plans. Although DCMA-Kuwait personnel had copies of contractors’ quality
control plans, they did not have documentation showing approval by ACC Southwest
Asia-Kuwait. Without Government approval, there is no assurance that the contractors’
quality control plans conform to the Performance Work Statement for the Heavy-Lift VI
program.

Throughout the audit, we met with DCMA-Kuwait officials to discuss potential issues
and risks that we had identified with the QASP and contractors’ quality control plans. As
a result, DCMA-Kuwait personnel took steps to begin developing guidance specific to
the Heavy-Lift VI program to address the QASP. Specifically, DCMA-Kuwait took steps
to reassess the use of a 100 percent inspection as a surveillance method to review call
forwarding times. DCMA-Kuwait officials stated that their goal was to incorporate their
guidance, when completed and approved, into the Heavy-Lift VI contracts. Also,
DCMA-Kuwait tasked all three contractors to update their quality control plans. By
March 2009, DCMA-Kuwait had received and approved the three contractors’ quality
control plans.

Defense Contract Management Agency Oversight
10B




In November 2007, ACC Rock Island Contracting Center assigned contract
administration responsibility for the Heavy-Lift VI program to DCMA-Kuwait.
However, DCMA-Kuwait personnel did not have clear guidance in place that would
allow them to effectively implement contract oversight specific to the Heavy-Lift VI
program. FAR Part 46 states that the contract administration office is to develop and
apply efficient procedures for performing Government contract quality assurance actions
and perform all actions necessary to verify whether services conform to contract quality
requirements. DFARS Part 246, “Quality Assurance,” directs that agencies of the DoD




                                             8
“develop and manage a systematic, cost-effective Government contract quality assurance
program to ensure that contract performance conforms to specified requirements.”

DCMA-Kuwait relied on guidance issued by the Commander, DCMA Iraq/Afghanistan,
which was not specific to the Heavy-Lift VI program. That guidance, “Quality
Assurance Surveillance Plan,” dated May 2008 (May 2008 DCMA Guide), provided
some details on how to conduct surveillance and oversight, but it was more specific to
contracts other than Heavy-Lift VI and was limited in providing details for effective
oversight. Therefore, DCMA-Kuwait was limited to how it executed contract oversight
for the Heavy-Lift VI program. However, command officials updated this guide in
January 2009 (January 2009 DCMA Guide) and renamed it the “Theater Quality Plan,”
which included the Heavy-Lift VI program for oversight responsibilities. That guide
contains more detailed steps for effective oversight and includes examples of source
documents needed to perform more effective oversight. Further, in January 2009,
DCMA-Kuwait developed draft guidance specific to the Heavy-Lift VI program.

      At the time of our review, we identified three areas that, due to the lack of clear guidance,
      DCMA-Kuwait needed to address. This included not having a methodology in place for
      applying risk levels to assess how contractors would be evaluated, not having clear and
      complete audit records, and a need to develop an approach for selecting contractors’
      vehicles for pre-mission inspections.

Risk Levels
21B




During our initial conversations with DCMA-Kuwait officials, they stated that they did
not have a methodology in place for determining risk levels for surveillance of the
contractors’ performance and were not using a tracking system to set up contractors’
surveillance schedule for monitoring performance. According to the May 2008 DCMA
Guide, risk-based analyses are used to determine frequency, intensity, and means of
travel to perform surveillance efforts. It also states the QAR and COR will collect and
analyze data and adjust surveillance frequency in accordance with the revised risk rating.
However, during our ongoing discussions with DCMA-Kuwait officials about their
efforts to develop guidance specific to the Heavy-Lift VI program, they implemented
actions to include procedures for assessing risk levels as well as developing a tracking
system to schedule contractors surveillance based on risk. We commend DCMA-Kuwait
for initiating corrective actions. Also, the January 2009 DCMA Guide included detailed
steps for assessing risk.

Audit Records
2B




Audits performed by DCMA-Kuwait to assess contractors’ contract compliance were
either incomplete or not always clear. According to the May 2008 DCMA Guide, the
QAR will conduct independent examinations and reviews of contractor services and
products in accordance with requirements outlined in the contract. DFARS Part 246
directs DoD agencies to conduct quality audits to ensure the quality of products and
services meet contractual requirements.




                                                   9
DCMA-Kuwait documented its examinations and reviews on DCMA Iraq/Afghanistan
Heavy-Lift VI audit records. Detailed audit records were to include information such as
the purpose of the audit, what was observed, the DCMA risk rating, and timeliness. We
reviewed 56 audit records developed by DCMA-Kuwait QARs and the COR for the
period from February through October 2008. Results were as follows:

            The purpose statements of the audits were vague and did not specifically identify
             what was to be accomplished. The May 2008 DCMA Guide did not provide
             specific instructions regarding the development of the purpose statement.

            Observations were not always detailed. The records lacked information such as
             vehicle identification numbers, the number and type of vehicles inspected, and
             deficiencies identified.

            Risk ratings were inconsistently applied by QARs and the COR. Our review
             showed that the QARs used a risk rating of “moderate” or “high” and the COR
             either used “low” or no rating was shown. DCMA-Kuwait officials
             acknowledged this was an oversight issue that needed to be addressed.

            Our review showed 16 audits (approximately 29 percent) were not preformed in
             accordance with their assigned risk ratings: high (weekly audits), moderate
             (biweekly audits), and low (monthly audits). Delays in performing those audits
             ranged from 16 to 85 days. DCMA-Kuwait officials stated this was attributed to
             not effectively tracking the audits.

      We discussed our results pertaining to the audit records with DCMA-Kuwait officials,
      whereby they took steps to address the issues we identified. They began updating their
      audit records to ensure the observations and risk ratings were clear and complete. Also,
      the January 2009 DCMA Guide included updates and more details for performing audits.

Vehicle Inspections
23B




The COR did not have a process in place for selecting contractors’ vehicles for pre-
mission inspection to ensure the contractors were in compliance with contract
requirements. A systematic approach was needed to select truck convoys, buses, and
baggage trucks for pre-mission inspections (includes inspecting brakes, lights, and fire
extinguishers). Our discussions with the COR and review of audit records showed that a
process was not in place for selecting these vehicles; for example, truck convoys are
individually selected and buses and baggage trucks were not inspected. The May 2008
DCMA Guide did not provide any guidance for how the QARs and COR were to manage
pre-mission inspections. The QASP required pre-mission inspections of contractors’
vehicles to ensure that required vehicles were available and mission-capable (100 percent
operational).

In review of the COR’s pre-mission inspection records for a 13-week period (August 2
through November 1, 2008), the number of inspections was inconsistent. The inspections
ranged from 55 to 172 convoys each week. According to the COR, all northbound


                                                 10
convoys (about two to seven missions per day) are inspected and the remainder are
individually selected by the COR support team at the beginning of each 8-hour work shift
based on location and distance from Camp Arifjan, Kuwait. In September 2008, the
COR established a goal to inspect at least 125 truck convoys each week. However,
without proper guidance defining an approach to pre-mission inspections, there is no way
to determine whether inspecting 125 truck convoys is reasonable.

In addition, as part of the COR surveillance responsibilities, the COR was not performing
pre-mission inspections of El Hoss Engineering and Transportation Company (HETCO)
buses and baggage trucks. DCMA-Kuwait audit records show that none of their reviews
involved a physical inspection of HETCO’s buses and baggage trucks to ensure that
minimum vehicle standards were met. In review of mission tracking records for the
period August 18 through November 3, 2008, the contractors’ buses performed about
7,900 missions that covered approximately 3.5 million miles without any pre-mission
inspections. At times, the QARs and COR did conduct some periodic reviews of
HETCO’s other requirement (such as adequate living conditions for drivers and driver
documentation).

     We concluded that because the volume of truck convoys was excessive (about 400−500
     per week), truck convoys were individually selected for inspections based on
     convenience, and buses and baggage trucks (about 500−600 convoys per week) incur
     significant miles on a monthly basis, the COR needed to develop a better approach for
     performing inspections to ensure every
     convoy has a fair and equal chance of being
     selected. After continuous interactions and
     sharing of information, DCMA-Kuwait
     initiated actions to begin developing guidance
     to address those deficiencies. Further, in
     December 2008, the COR performed pre-
     mission inspections of HETCO’s buses and
     baggage trucks to validate whether those
     vehicles were in compliance with contract
     requirements. Results showed 332 vehicles
     were inspected (287 buses and 45 baggage
     trucks); 45 of those vehicles were identified as  Source: DoD IG Auditors, November 9, 2008.
     having defects and did not meet contract
                                                        Figure 2. HETCO Bus Yard
     requirements for readiness.

     We commend DCMA-Kuwait personnel in their efforts to improve the vehicle inspection
     process, but they must ensure that the COR develops a systematic approach to selecting
     truck convoys, buses, and baggage trucks for pre-mission inspections.

Delegation Memoranda
1B




The procuring contracting officer’s delegation memoranda defining contract
administration responsibilities to the administrative contracting officer were not clear.
The procuring contracting officer, ACC Rock Island Contracting Center, issued


                                                  11
delegation memoranda to the administrative contracting officer at DCMA-Kuwait in
November 2008 that outlined some of the expected contract administration functions for
the Heavy-Lift VI contracts. However, those functions were vague and needed to be
updated. Also, a Contract Administration Delegation Matrix was provided, which
contained FAR references (42.302 series) where the procuring contracting officer
identified additional administrative functions. This matrix, dated March 2005, was
designed for a previous heavy-lift program (Heavy-Lift IV), did not identify the offices
involved, and contained FAR references not applicable to the Heavy-Lift VI program.
The procuring contracting officer needs to update the contract administration functions in
the delegation memoranda and the matrix in order to provide more detailed guidance to
the administrative contracting officer in support of a memorandum of agreement.

Currently there is no formal agreement in place between the procuring contracting office
and DCMA-Kuwait. As a best practice, the procuring contracting office, ACC Rock
Island Contracting Center should consider establishing a memorandum of agreement with
DCMA-Kuwait to ensure the success of contract administration for the Heavy-Lift VI
program. It would also provide uniform guidance and interpretation of the Heavy-Lift VI
contracts and regulatory requirements. FAR Subpart 42.2, “Contract Administration
Services,” allows the procuring contracting office to delegate contract administration
services and allows for any special instructions, including any functions withheld or any
specific authorization to perform functions. The memorandum should define the actions
needed to coordinate and implement expected responsibilities of the procuring
contracting office and DCMA-Kuwait contract administration services support that
would be provided throughout the life of the Heavy-Lift VI program. For example,
turnover of administrative contracting officials is high (about every 6 months) and
establishing a formal agreement would ensure consistency in contract administration.
Additionally, the memorandum can serve as the delegation of record for special
instructions and additional delegation of functions.




                                           12
Recommendations, Management Comments, and Our
12B 12B




Response
A.1. We recommend that the Executive Director, Rock Island Contracting Center,
U.S. Army Contracting Command require the procuring contracting officer:

     a. Coordinate with the Defense Contract Management Agency-Kuwait
administrative contracting officer to reassess the appropriateness of each
surveillance method for evaluating contractors’ compliance with performance
objectives identified in the Quality Assurance Surveillance Plan and update the
Quality Assurance Surveillance Plan in each of the Heavy-Lift VI contracts.

     b. Review the Heavy-Lift VI contractors’ quality control plans to ensure
contractors have a comprehensive program to meet Heavy-Lift VI contracts’
performance requirements.

     c. Update the contract administration functions in the delegation memoranda
and Contract Administration Delegation Matrix in order to provide more detailed
guidance to the administrative contracting officer.

     d. Consider establishing a formal memorandum of agreement with Defense
Contract Management Agency-Kuwait that would detail expected responsibilities
and functions of contract administration for the Heavy-Lift VI program.

U.S. Army Contracting Command, Rock Island Contracting
Center Comments
The Executive Director, Rock Island Contracting Center agreed with recommendations
A.1.a, A.1.b, and A.1.c. The Executive Director stated Rock Island Contracting Center
will coordinate with DCMA-Kuwait and the requiring activity to reassess surveillance
methods for conformance to the QASP and update the QASP in each of the Heavy-
Lift VI contracts. The Executive Director also stated all three contractor’s quality control
plans have been approved by the Government as of March 2009. Additionally, Rock
Island Contracting Center will update the Contract Administration Delegation Matrix and
will review the functions in the delegation memoranda.

The Executive Director, Rock Island Contracting Center disagreed with Recommen-
dation A.1.d stating he considered establishing a formal Memorandum of Agreement but
the use of individual contract administration delegation is more efficient and effective.

Our Response
The Executive Director, Rock Island Contracting Center comments were responsive.
Though the Executive Director, Rock Island Contracting Command disagreed with
Recommendation A.1.d, we found his comments to be responsive. Therefore, no
additional comments are required.



                                            13
A.2. We recommend that the Commander, Defense Contract Management Agency-
Kuwait finalize guidance on contract administration for the Heavy-Lift VI program
that is consistent with the January 2009 Defense Contract Management Agency
Guide. For example, ensure that the guidance contains:

     a. A methodology for applying risk levels to assess how contractors will be
evaluated.

     b. Procedures that ensure audit records’ purposes, observations, and risk
ratings are clear and complete.

     c. A systematic approach for selecting truck convoys, buses, and baggage
trucks for pre-mission inspections.

Defense Contract Management Agency-Kuwait Comments
The Deputy Commander, DCMA International provided the Commander, DCMA-
Kuwait comments. The Deputy Commander agreed with Recommendations A.2.a,
A.2.b, and A.2.c. The Deputy Commander stated: the DCMA Middle East-Kuwait
Theater Quality Plan will be used as the methodology for applying risk levels; DCMA-
Kuwait will ensure that audit records, observations, and risk ratings are done in a
systematic manner by following DCMA guidance as provided for in the Theater Quality
Plan; and DCMA-Kuwait will use the contract QASP in concert with the Theater Quality
Plan to refine the approach and schedule for pre-mission inspections and continue to
provide oversight on pre-mission inspections, contractor engagement, COR monitoring,
and DCMA auditing of the process.

Our Response
The Deputy Commander, Defense Contract Management Agency-International
comments are responsive. No additional comments are required.




                                         14
Finding B. Adequacy of Contract Files
The U.S. Army Contracting Command, Southwest Asia-Kuwait did not always ensure
that Heavy-Lift VI contracts’ task orders were reviewed by legal counsel prior to award
and did not maintain adequate contract documentation to provide a history that supported
contract actions.

As a result, DoD did not have reasonable assurance that commercial transportation
services for movement of equipment, cargo, and personnel totaling as much as
$522 million:
     complied with terms set forth in the program’s performance work statements,
     were valid requirements, and
     were received and represented the best value to the Government.

Since contracting office responsibilities were transferred to ACC Rock Island Contracting
Center in November 2007, contracting officials have ensured timely legal reviews and are
maintaining complete contract files supporting acquisition actions for the Heavy-Lift VI
program. In addition, contract documentation and files have significantly improved since
DCMA-Kuwait was delegated administrative contracting office responsibilities in
November 2007.

      Although ACC Rock Island Contracting Center and DCMA-Kuwait have effectively
      corrected some key internal control deficiencies specific to legal reviews and contract
      documentation for the Heavy-Lift VI program, ACC Southwest Asia-Kuwait must
      comply with contracting acquisition policies for contracts under its purview.

Federal Acquisition Regulation
13B




FAR Part 4.8, “Government Contract Files,” requires contract files to “constitute a
complete history of the transactions.” Contracting offices are to establish files containing
the records of all contractual actions that are to be sufficient to constitute a complete
history of the transaction for the purpose of providing a complete background as a basis
of informed decisions, supporting actions taken, and providing information for reviews
and investigations. Contract files should include evidence of legal reviews, invoices, and
quality assurance records.

Contract Documentation
14B




ACC Southwest Asia-Kuwait did not maintain adequate documentation to provide a
history that supported contract actions. Required legal reviews for task orders were not
always performed or were completed after the task orders were approved. Also, ACC
Southwest Asia-Kuwait did not maintain complete contract documentation to show that
contract oversight was being performed. However, since contracting authority was
transferred to ACC Rock Island Contracting Center, legal reviews were being performed
timely and the command, along with DCMA-Kuwait, has taken steps to retain key
contracting documentation.


                                                  15
Legal Reviews
24B




Required legal reviews of individual task orders were not always performed or they were
performed after task orders were awarded to the contractors. The ACC Southwest Asia-
Kuwait Acquisition Guide requires proposed contract actions expected to result in awards
of $300,000 or more to undergo a legal review. At times, contracting officials requested
legal reviews and received approvals through memoranda from their Office of General
Counsel. Of the 109 task orders that required a legal review, there were 70, valued at
about $336.6 million, in which such a review was not performed. Also, there were 22
task orders in which a legal review was approved after the task orders were issued.
Those task orders were valued at about $71 million. In review of task order files, the
contracting officer at ACC Southwest Asia-Kuwait at times inserted a memorandum in
the files that stated that they were not able to get a legal review of task orders due to legal
personnel providing little to no legal support.

During our visit to ACC Southwest Asia-Kuwait, officials were not able to provide
rationale for the lack of reviews since the Heavy-Lift VI contract files had been
transferred to ACC Rock Island Contracting Center and none of the contracting officials
who had been associated with Heavy-Lift VI contracts were still in the Kuwait area of
operations.

Since DCMA-Kuwait was delegated as the contracting administrative office in November
2007, the condition of the files has significantly improved. The QAR and COR, who
now share this responsibility, are meeting QASP requirements for maintaining contract
files. The QAR and COR were maintaining a surveillance folder that included weekly
inspection reports of contractors’ vehicles, audits assessing contractors’ performance, and
records of scheduled contractors’ meetings. DCMA-Kuwait efforts in maintaining a
comprehensive surveillance folder results in greater assurance that contract oversight and
surveillance for the Heavy-Lift VI program is being conducted.

Key Contracting Documents
25B




Many of the key contracting documents such as requirements, receiving reports, and
invoices that were needed to support contract task orders were either missing or not
signed. We identified 150 task orders with an estimated value of $522 million that were
affected. A summary of our review is as follows:

         79 task orders, valued at about $330 million, were missing requirements;

         49 task orders, valued at about $306 million, were missing receiving reports;

         1 task order, valued at about $66,000, had a receiving report that was not signed;

         50 task orders, valued at about $301 million, were missing invoices;

         58 task orders, valued at about $95 million, had invoices that were not signed.




                                              16
In our discussions with officials at ACC Southwest Asia-Kuwait about the issues
identified, they stated that they were aware of the issues. The DCMA-Kuwait officials
also stated that the Heavy-Lift VI contract files in question were generated prior to their
arrival to Kuwait and transferred to ACC Rock Island Contracting Center. Further, they
mentioned that none of the associated contracting officials who could explain this
deficiency were still in the Kuwait area of operations.

Because some of the key supporting documents were missing or not signed, we were not
able to determine whether valid requirements existed, services were performed, and if the
Government was properly billed. Proper retention of key supporting documents for
contract task orders for historical information is essential in ensuring that contract
administration of the Heavy-Lift VI program was effective. Due to the number of
documents missing or not signed, we plan to perform a future review of the billing and
payment process for these contracts.

      Since ACC Rock Island Contracting Center was designated procuring contracting office
      responsibility, the command has issued 36 task orders during our review (November
      2007−August 2008). For those 36 task orders, the command has done a good job in
      ensuring required legal reviews on a timely basis, as well as signing and retaining key
      documents such as requirements, receiving reports, and invoices.

Conclusions
26B




Based on the actions taken by ACC Rock Island Contracting Center and DCMA-Kuwait,
we believe they have taken the necessary steps to reduce the risk and mitigate issue areas
pertaining to legal requirements and document controls. We commend ACC Rock Island
Contracting Center for its efforts to perform timely legal reviews and the retention of key
contracting documents. We also commend DCMA-Kuwait for its efforts to document
and retain contract files needed to document the surveillance of the Heavy-Lift VI
program. However, ACC Southwest Asia-Kuwait must strengthen its internal controls
regarding contract files.

Recommendation
B. We recommend that the Commander, U.S. Army Contracting Command, Southwest
Asia-Kuwait comply with Federal Acquisition Regulation Part 4.8, “Government
Contract Actions,” regarding the retention of sufficient contract files that would
constitute a complete history for contracts under its purview.

U.S. Army Contracting Command Southwest Asia-Kuwait
Comments Required
The Commander, U.S. Army Contracting Command, Southwest Asia-Kuwait did not
comment on the recommendation. We request that the Commander, U.S. Army
Contracting Command, Southwest Asia-Kuwait provide comments in response to the
final report by August 28, 2009.




                                                 17
Appendix. Scope and Methodology
We conducted this performance audit from July 2008 through July 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We performed this audit as required by Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan.”
Specifically, we focused on the effectiveness of contractor oversight performed by the
procuring contracting offices at ACC Southwest Asia-Kuwait and ACC Rock Island
Contracting Center, and the administrative contracting office at DCMA-Kuwait.

We reviewed contract files pertaining to the three Heavy-Lift VI contracts and the
197 task orders, valued at $692.6 million, issued by ACC Southwest Asia-Kuwait and
ACC Rock Island Contracting Center. We also reviewed contract files maintained at
DCMA-Kuwait. We reviewed guidance issued by DCMA Iraq/Afghanistan, the
Principal Assistant Responsible for Contracting-U.S. Army Central Command, and
DCMA-Kuwait to determine whether sufficient guidance existed.

We interviewed contracting officials pertaining to various aspects of providing contract
administration and oversight for the Heavy-Lift VI program at ACC Southwest Asia-
Kuwait, ACC Rock Island Contracting Center, and DCMA-Kuwait. We also interviewed
personnel from the U.S. Central Command, U.S. Army Central Command, U.S. Army
Materiel Command, DCMA-International, 408th Contract Support Brigade, 311th
Expeditionary Sustainment Command, and the 406th Trailer Transfer Detachment.

We limited our audit to reviewing the effectiveness of contract oversight of the U.S.
Army’s use of commercial transportation services for the movement of equipment, cargo,
and personnel in support of Operation Iraqi Freedom.

Use of Computer-Processed Data
15B




We used computer processed data to perform this audit. Specifically, we used contract
documentation from the Procurement Desktop Defense system and Procurement
Automated Data and Document System. We did not test the reliability of these systems
because our audit was of the contract oversight process and not on the accuracy of the
contract information provided by the procuring contracting officer. Our audit focused on
the contracting offices’ maintaining adequate contract documentation in support of the
Heavy-Lift VI program. Therefore, we believe not testing the reliability of computer
processed data will not affect the results of our audit.




                                           18
Prior Coverage
16B




During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (IG) have issued two reports discussing
contractor oversight on service contracts in support of contingency operations.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
                                                             U                  U




Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
                                               U                                    U




GAO
27B




GAO Report No. GAO-04-854, “Military Operations: DoD’s Extensive Use of Logistics
Support Contracts Requires Strengthened Oversight,” July 19, 2004

DoD IG
28B




DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005




                                          19
Executive Director, Rock Island Contracting Center
Comments




                    Click to add JPEG file




                                   20
Click to add JPEG file




               21
Click to add JPEG file




               22
Deputy Commander, Defense Contract Management
Agency International Comments




                 Click to add JPEG file




                                23
Click to add JPEG file




               24
THIS PAGE INTENTIONALLY LEFT BLANK




                25
